 

 

No. 19-1328

 

IN THE
Supreme Court of the Anited States

 

UNITED STATES DEPARTMENT OF JUSTICE,
Petitioner,
Vv.

COMMITTEE ON THE JUDICIARY OF THE
UNITED STATES HOUSE OF REPRESENTATIVES,

Respondent.

CERTIFICATE OF SERVICE

 

I, Brianne J. Gorod, do hereby declare that on October 21, 2020, as required by
Supreme Court Rule 29.5, I have served by first-class mail, postage pre-paid, the Brief
of Constitutional Accountability Center as Amicus Curiae in Support of Respondent

on counsel for each party to the above proceedings as follows:

Jeffrey B. Wall Douglas N. Letter

Acting Solicitor General Office of General Counsel

United States Dept. of Justice U.S. House of Representatives

950 Pennsylvania Ave., N.W. 219 Cannon House Office Building
Washington, DC 20530-0001 Washington, DC 20515
SupremeCtBriefs@USDOJ.gov Douglas.letter@mail.house.gov
(202) 514-2217 (202) 225-9700

Counsel of Record for Petitioner Counsel of Record for Respondent

Department of Justice House Committee on the Judiciary
I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 21, 2020.

 

Counsel for Amicus Curiae
